CERTIFICATE OF COMPLIANCE
Case Nos. 20-512, 20-520
Caption: National Collegiate Athletic Association
v. Alston
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,854 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 10, 2021.

Sworn to before me on
March 10, 2021
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366

